App. No.

____

IN THE SUPREME COURT OF THE UNITED STATES

Servando Gonzalez Galvan,
Petitioner
v.
Merrick B. Garland, Attorney General,

Respondent.

ON APPLICATION FOR AN EXTENSION OF TIME TO FILE A PETITION FOR A
WRIT OF CERTIORARI TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
PETITIONER’S APPLICATION TO EXTEND TIME TO FILE A PETITION FOR A
WRIT OF CERTIORARI

Erica Hashimoto, Director
Georgetown University Law Center
Appellate Litigation Program
111 F Street NW, Suite 306
Washington, D.C. 20001
(202) 662-9555
applit@law.georgetown.edu
October 1, 2021

In the Supreme Court of the United States
___________________
Servando Gonzalez Galvan,
Petitioner
v.
Merrick B. Garland, Attorney General,
Respondent.
_________________
PETITIONER’S APPLICATION TO EXTEND TIME TO FILE A
PETITION FOR A WRIT OF CERTIORARI
_________________
To The Honorable John G. Roberts, Jr., as Circuit Justice for the
United States Court of Appeals for the Fourth Circuit:
Pursuant to Supreme Court Rule 13.5, Petitioner Servando
Gonzalez Galvan respectfully requests that the time to file a Petition for
a Writ of Certiorari in this matter be extended for forty-five days to
December 9, 2021. The Court of Appeals issued its opinion on July 27,
2021. Absent an extension of time, the Petition would therefore be due
on October 25, 2021. Petitioner is filing this Application at least ten days

2

before that date. See S. Ct. R. 13.5. This Court would have jurisdiction
over the judgment under 28 U.S.C. §1254(1).
REASONS FOR GRANTING AN EXTENSION OF TIME
The time to file a Petition for Writ of Certiorari should be extended
for forty-five days for these reasons:
1. The request for the extension of time is justified in order to provide
Mr. Gonzalez Galvan’s legal team adequate time to prepare the
petition:
a. Assigned counsel is the Director of the Appellate Litigation
Program at the Georgetown University Law Center.

The

Appellate Litigation Program is a student clinic run through
the law school in which third-year students, under the
supervision of licensed attorneys, litigate appeals in this and
other courts.
b. The personnel of the clinic turns over during the summer.
The students in the clinic who prepared the briefs before the
United States Court of Appeals for the Fourth Circuit have
graduated.

c. The attorney who directly supervised the students in the
proceedings below was a clinical fellow who has also
graduated.
d. The turnover in clinic personnel necessitates additional time
for the new legal team to familiarize itself with the case and
to brief the issues fully. In this regard, the matter is akin to
a change in counsel which has supplied “good cause” for a time
extension under this Court’s rules.

See Gressman et al.,

Supreme Court Practice at § 6.7 (A)(4) (11th ed. 2019).
2. The extension will provide adequate time for the new legal team
fully to prepare a certiorari petition on Mr. Gonzalez Galvan’s
behalf.
3. Similar applications previously have been approved by justices of
this Court. See, e.g., Application No. 19A212 (Bowling v. Clarke)
(Aug. 22, 2019) (application for extension of time granted by Chief
Justice Roberts in light of turnover of appellate litigation clinic
personnel and change in grounds for petition); Application No.
12A105 (Carrillo v. Tucker) (July 20, 2012) (application for

extension of time granted by Justice Thomas in light of turnover of
appellate litigation clinic personnel).
4. No meaningful prejudice would arise from the extension:
a. This Court would most likely not hear this case until the
October 2021 Term regardless whether this motion is granted.
b. This petition concerns Mr. Gonzalez Galvan’s eligibility for
cancellation of removal. He has already been removed to
Mexico, where he currently resides.
CONCLUSION
For the foregoing reasons, the application should be granted and
the deadline for filing a petition for a writ of certiorari should be extended
forty-five days to and including December 9, 2021.

Respectfully submitted,
/s/ Erica Hashimoto
Erica Hashimoto, Director
Georgetown University Law Center
Appellate Litigation Program
111 F Street NW, Suite 306
Washington, D.C. 20001
(202) 662-9555
applit@law.georgetown.edu
October 1, 2021

